2311 Douglas Street A wd E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B hae fs contact@cocklelegalbriefs.com
ist 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
g
Fax: (402) 342-4850

No.

GRANT LLOYD GREENWOOD,
Petitioner,
v.
STATE OF MINNESOTA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 7840 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 16th day of September. 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

freee] Aone 0. thao Ondine Chl

Affiant 41083

 

Wig Comm. Exp. September ยง, 2023

Notary Public
